APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma (April 8, 2021) ........................... 1a
District Court of Pontotoc County, State of
Oklahoma, Findings of Fact and Conclusions
of Law (Signed November 18, 2020, Filed
November 19, 2020) ................................................ 13a
Court of Criminal Appeals, State of Oklahoma,
Order Remanding for Evidentiary Hearing
(August 19, 2020) .................................................... 22a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(APRIL 8, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
CHARLES MICHAEL COOPER,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
NOT FOR PUBLICATION
Case No. F-2018-830
Before: Dana KUEHN, President Judge.,
Scott ROWLAND, Vice President Judge.,
Gary L. LUMPKIN, Judge., David B. LEWIS,
Judge., Robert L. HUDSON, Judge.
OPINION
ROWLAND, VICE PRESIDING JUDGE:
Charles Michael Cooper was tried in a non-jury
trial in the District Court of Pontotoc County, Case
No. CF-2016-535. The Honorable C. Steven Kessinger,
District Judge, found Cooper guilty of First Degree
Murder (Count 1), in violation of 21 O.S.Supp.2012,

App.2a
§ 701.7; First Degree Arson (Counts 2 and 5), in violation of 21 O.S.Supp.2013, § 1401; First Degree Burglary
(Count 3), in violation of 21 O.S.2011, § 1431; and
Second Degree Rape by Instrumentation (Count 4),
in violation of 21 O.S.Supp.2015, § 1111.1. Judge
Kessinger sentenced Cooper to life imprisonment without parole on Count 1, thirty-five years imprisonment
on Counts 2 and 5, twenty years imprisonment on
Count 3, and fifteen years imprisonment on Count 4.
All counts were ordered to be served consecutively.
Cooper appeals raising the following issues:
(1) whether the State of Oklahoma had jurisdiction to prosecute him; and
(2) whether he received effective assistance of
counsel.
We find relief is required on Cooper’s jurisdictional
challenge in Proposition 1, rendering his other claim
moot. Cooper claims the State of Oklahoma did not
have jurisdiction to prosecute him. He relies on 18
U.S.C. § 1153 and McGirt v. Oklahoma, 591 U.S. ___,
140 S. Ct. 2452 (2020).
On August 19, 2020, this Court remanded this
case to the District Court of Pontotoc County for an
evidentiary hearing. The District Court was directed
to make findings of fact and conclusions of law on
two issues: (a) Cooper’s status as an Indian; and (b)
whether the crime occurred in Indian Country, namely
within the boundaries of the Chickasaw Nation Reservation. Our order provided that, if the parties agreed
as to what the evidence would show with regard to
the questions presented, the parties could enter into
a written stipulation setting forth those facts, and no
hearing would be necessary.

App.3a
On October 8, 2020, the parties filed written
stipulations in the District Court. On October 19, 2020,
the parties appeared for an evidentiary hearing on
the remand order. On November 19, 2020, the District
Court filed its Findings of Fact and Conclusions of Law.
The parties agreed by stipulation that (1) Cooper
has some Indian blood; (2) he was an enrolled member
of the Chickasaw Nation on the date of the charged
offense; and (3) the Chickasaw Nation is a federally
recognized tribe. The District Court accepted this
stipulation and reached the same conclusion in its
Findings of Fact and Conclusions of Law.
As to the second question on remand, whether the
crime was committed in Indian country, the stipulation
of the parties was less dispositive. They agreed only
that the charged crime occurred within the historical
geographic area of the Chickasaw Nation as designated
by various treaties.
In a thorough and well-reasoned order, the District Court examined the treaties between the
Chickasaw Nation and the United States of America.
The District Court concluded that the treaties established a reservation for the Chickasaw Nation and
that no evidence was presented showing that Congress had ever erased the boundaries of, or disestablished, the Chickasaw Reservation. This Court adopted
this same conclusion of law in Bosse v. State, 2021
OK CR 3, ¶¶ 10, 12, ___ P.3d ___. For purposes of
federal criminal law, the land upon which the parties
agree Cooper allegedly committed the crime is within
the Chickasaw Reservation and is thus Indian country.
The ruling in McGirt governs this case and
requires us to find the District Court of Pontotoc

App.4a
County did not have jurisdiction to prosecute Cooper.
Accordingly, we grant relief based upon argument
raised in Proposition 1.
DECISION
The Judgment and Sentence of the District Court
is VACATED. The matter is REMANDED WITH
INSTRUCTIONS TO DISMISS. Pursuant to Rule
3.15, Rules of the Oklahoma Court of Criminal
Appeals, Title 22, Ch. 18, App. (2021), the MANDATE
is ORDERED to issue in twenty (20) days from the
delivery and filing of this decision.
AN APPEAL FROM THE DISTRICT COURT OF
PONTOTOC COUNTY, THE HONORABLE C.
STEVEN KESSINGER, DISTRICT JUDGE
APPEARANCES AT TRIAL
Jason Christopher
Attorney at Law
1320 Stone Bridge Drive, Suite A
Ada, OK 74820
Counsel for Defendant
Tara Portillo
Asst. District Attorney
105 West 13th
Ada, OK 74820
Counsel for State

App.5a
APPEARANCES ON APPEAL
Kristi Christopher
Chief, Capital Post Conviction Division
Oklahoma Indigent Defense System
P.O. Box 926
Norman, OK 73070
Counsel for Appellant
Mike Hunter
Attorney General of Oklahoma
Theodore M. Peeper
Assistant Attorney General
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for Appellee
APPEARANCES AT EVIDENTIARY HEARING
Kristi Christopher
Chief, Capital Post Conviction
Division Oklahoma Indigent Defense System
P.O. Box 926
Norman, OK 73070
Counsel for Defendant
Mike Hunter
Attorney General of Oklahoma
Theodore M. Peeper
Joshua R. Fanelli
Assistant Attorneys General
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for State

App.6a
Paul B. Smith
District Attorney
Tara Portillo
Asst. District Attorney
105 West 13th
Ada, OK 74820
Counsel for State
Debra Gee
Chickasaw Nation Division of Justice
4001 N. Lincoln Blvd.
Oklahoma City, OK 73105
Counsel for Chickasaw Nation
OPINION BY: ROWLAND, V.P.J.
KUEHN, P.J.: CONCUR
LUMPKIN, J.: CONCUR IN RESULT
LEWIS, J.: SPECIALLY CONCUR
HUDSON, J.: CONCUR IN RESULT

App.7a
LUMPKIN, JUDGE
CONCURRING IN RESULTS:
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must at
a minimum concur in the results of this opinion.
While our nation’s judicial structure requires me to
apply the majority opinion in the 5-4 decision of the
U.S. Supreme Court in McGirt v. Oklahoma, ___ U.S.
___, 140 S. Ct. 2452 (2020), I do so reluctantly. Upon
the first reading of the majority opinion in McGirt, I
initially formed the belief that it was a result in
search of an opinion to support it. Then upon reading
the dissents by Chief Justice Roberts and Justice
Thomas, I was forced to conclude the Majority had
totally failed to follow the Court’s own precedents, but
had cherry picked statutes and treaties, without giving
historical context to them. The Majority then proceeded to do what an average citizen who had been
fully informed of the law and facts as set out in the
dissents would view as an exercise of raw judicial
power to reach a decision which contravened not only
the history leading to the disestablishment of the
Indian reservations in Oklahoma, but also willfully
disregarded and failed to apply the Court’s own precedents to the issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required me
to resist unlawful orders. Chief Justice Roberts’s
scholarly and judicially penned dissent, actually
following the Court’s precedents and required analysis,
vividly reveals the failure of the majority opinion to

App.8a
follow the rule of law and apply over a century of
precedent and history, and to accept the fact that no
Indian reservations remain in the State of Oklahoma.1
The result seems to be some form of “social justice”
created out of whole cloth rather than a continuation
of the solid precedents the Court has established
over the last 100 years or more.

1 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act
(IRA) in 1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community without
you would go and buy land and put them on it. Then
they would be surrounded very likely with thickly
populated white sections with whom they would trade
and associate. I just cannot get through my mind
how this bill can possibly be made to operate in a
State of thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the
United States Senate Committee on Indian Affairs, February
27, 1934. Senator Morris Sheppard, D-Texas, also on the Senate
Committee on Indian Affairs, stated in response to the Commissioner’s speech that in Oklahoma, he did not think “we could
look forward to building up huge reservations such as we have
granted to the Indians in the past.” Id. at 157. In 1940, in the
Foreword to Felix S. Cohen, Handbook of Federal Indian Law
(1942), Secretary of the Interior Harold Ickes wrote in support
of the IRA, “Pie continued application of the allotment laws,
under which Indian wards have lost more than two-thirds of
their reservation lands, while the costs of Federal administration of these lands have steadily mounted, must be terminated.”
(emphasis added).

App.9a
The question I see presented is should I blindly
follow and apply the majority opinion or do I join with
Chief Justice Roberts and the dissenters in McGirt
and recognize “the emperor has no clothes” as to the
adherence to following the rule of law in the application of the McGirt decision?
My oath and adherence to the Federal-State relationship under the U.S. Constitution mandate that I
fulfill my duties and apply the edict of the majority
opinion in McGirt. However, I am not required to do so
blindly and without noting the flaws of the opinion as
set out in the dissents. Chief Justice Roberts and
Justice Thomas eloquently show the Majority’s mischaracterization of Congress’s actions and history with the
Indian reservations. Their dissents further demonstrate
that at the time of Oklahoma Statehood in 1907, all
parties accepted the fact that Indian reservations in
the state had been disestablished and no longer existed.
I take this position to adhere to my oath as a judge and
lawyer without any disrespect to our Federal-State
structure. I simply believe that when reasonable minds
differ they must both be reviewing the totality of the
law and facts.

App.10a
LEWIS, JUDGE, SPECIALLY CONCURRING
Based on my special writings in Bosse v. State,
2021 OK CR 3, ___ P.3d ___ and Hogner v. State,
2021 OK CR 4, ___ P.3d ___, I concur in the decision
to dismiss this case for the lack of state jurisdiction.

App.11a
HUDSON, JUDGE, CONCUR IN RESULTS:
Today’s decision applies McGirt v. Oklahoma, 140
S. Ct. 2452 (2020) to the facts of this case and dismisses
convictions from Pontotoc County for first degree
murder, first degree arson, first degree burglary, and
second degree rape by instrumentation. I concur in
the results of the majority’s opinion based on the
stipulations below concerning the Indian status of
Appellant and the location of these crimes within the
historic boundaries of the Chickasaw Reservation.
Under McGirt, the State cannot prosecute Appellant
because of his Indian status and the occurrence of
these crimes within Indian Country as defined by
federal law. I therefore as a matter of stare decisis
fully concur in today’s decision.
I disagree, however, with the majority’s definitive
conclusion that Congress never disestablished the
Chickasaw Reservation. Here, the State took no
position below on whether the Chickasaw Nation has,
or had, a reservation. The State’s tactic of passivity
has created a legal void in this Court’s ability to
adjudicate properly the facts underlying Appellant’s
argument. This Court is left with only the trial
court’s conclusions of law to review for an abuse of
discretion. We should find no abuse of discretion
based on the record evidence presented. But we
should not conclude definitively that the Chickasaw
Nation was never disestablished based on this record.
Finally, I maintain my previously expressed views
on the significance of McGirt, its far-reaching impact
on the criminal justice system in Oklahoma and the
need for a practical solution by Congress. See Bosse
v. State, 2021 OK CR 3, ___ P.3d ___ (Hudson, J.,

App.12a
Concur in Results); Hogner v. State, 2021 OK CR 4,
___ P.3d ___ (Hudson, J., Specially Concurs); and
Krafft v. State, No. F-2018-340 (Okl. Cr., Feb. 25,
2021) (Hudson, J., Specially Concurs) (unpublished).

App.13a

DISTRICT COURT OF PONTOTOC COUNTY,
STATE OF OKLAHOMA, FINDINGS OF FACT
AND CONCLUSIONS OF LAW
(SIGNED NOVEMBER 18, 2020,
FILED NOVEMBER 19, 2020)
IN THE DISTRICT COURT IN AND FOR
PONTOTOC COUNTY, STATE OF OKLAHOMA
________________________
CHARLES MICHAEL COOPER,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. CF-2016-535
Case No. F-2018-830
Before: C. Steven KESSINGER, District Judge.
FINDINGS OF FACT
AND CONCLUSIONS OF LAW
This matter came on for hearing on October 19,
2020, pursuant to the Order Remanding For An Evidentiary Hearing issued by the Oklahoma Court of
Criminal Appeals filed August 19, 2020.
The State of Oklahoma appeared by District Attorney, Mr. Paul B. Smith, Assistant District Attorney,

App.14a
Ms. Tara Portillo, and Attorneys General Mr. Theodore
M. Peeper and Mr. Joshua R. Fanelli. The Appellant
appeared by OIDS attorney, Ms. Kristi Christopher.
The Chickasaw Nation, an interested party, appeared
by attorney of record, Ms. Debra Gee, having filed an
Amicus Curiae brief.
The Court heard the argument of counsel and
took this matter under advisement.
The Court of Criminal Appeals ordered this Court
to address and determine the following:
1.

The Indian status of the Appellant.

2.

Whether the crimes occurred in Indian
country.

I. The Appellant’s Status as an Indian
The Court of Criminal Appeals ordered this Court
to determine the Appellant’s Indian status by determining whether (1) the Appellant had some Indian
blood, and (2) is recognized as an Indian by a tribe or
the federal government. The Court will initially address
those issues.
FINDINGS OF FACT
1. On October 8, 2020, the parties filed certain
Stipulations as to fact questions.
2. The Appellant, Charles Michael Cooper, has
39/64th Indian blood and was an enrolled member of
the federally recognized Chickasaw Nation at the
time of the crime. Verification of Cooper’s Indian blood
and tribal membership was supplied by the Chickasaw
Nation.

App.15a
CONCLUSIONS OF LAW
The Court of Criminal Appeals ordered this
Court to determine Indian status of the Appellant.
This Court was directed to determine whether (1) the
Appellant has some Indian blood and (2) the Appellant
is recognized as an Indian by a tribe or the federal
government.
The parties stipulated that the Appellant has
39/64th Indian blood and was an enrolled member of
the federally recognized Chickasaw Nation at the
time of the crime. The Court adopts the parties’
stipulations and finds that the Appellant “had some
Indian blood.”
The parties stipulated that the Appellant was
“recognized as an Indian by a tribe or the federal
government.” This stipulation is supported by the
Chickasaw Nation letters confirming citizenship. The
Court finds that Appellant is a recognized member of
the Chickasaw Nation.
II. Whether the Crimes
Occurred in Indian Country
The Court of Criminal Appeals ordered this
Court to determine whether the crimes occurred in
Indian country. The Court must follow the analysis
in McGirt and determine (1) whether Congress established a reservation for the Chickasaw Nation, and
(2) if so, whether Congress specifically erased those
boundaries and disestablished the reservation. In
making this determination, the District Court should
consider any evidence the parties provided, including
treaties, statutes, maps and/or testimony.

App.16a
FINDINGS OF FACT
1. The Indian Removal Act of 1830 authorized the
President’s representatives to negotiate with Native
American tribes for their removal to federal territory
west of the Mississippi River in exchange for their
ancestral lands.
2. Pursuant to the authority outlined in the Indian
Removal Act of 1830, the 1830 Treaty of Dancing
Rabbit Creek was entered. The United States of America granted to the Choctaw Nation certain lands “in
fee simple” to them and their descendants, to insure
to them while they shall exist as a Nation, and live
on it” in exchange for the Choctaw Nation ceding
their lands east of the Mississippi River. Article 4
granted the Choctaw people “the jurisdiction and
government of all the persons and property that may
be within their limits west, so that no Territory or
State shall ever have a right to pass laws for the government of the Choctaw Nation of Red People and
their descendants; and that no part of the land
granted them shall ever be embraced in any Territory
or State.” The land granted to the Choctaw Nation
was described as: “beginning near Fort Smith where
the Arkansas boundary crosses the Arkansas River,
running thence to the course of the Canadian fork; if
in the limits of the United States, or to those limits;
thence due south to Red River, and down Red River
to the west boundary of the Territory of Arkansas;
thence north along that line to the beginning.”
3. The 1837 Treaty of Doaksville granted the
Chickasaw people a “district within limits of the 1830
Treaty of Dancing Rabbit Creek territory to be held
on the same terms that the Choctaws now hold it.”
The 1837 Treaty entered between the Choctaws and

App.17a
Chickasaws made the provisions of the 1830 Treaty
of Dancing Rabbit Creek applicable to the Chickasaw
Nation.
4. In 1855, the Treaty of Washington reaffirmed
the 1837 Treaty of Doaksville and modified the western
boundary of the Chickasaw territory. Congress explicitly asserted that “pursuant to the Indian Removal
Act, the United States do hereby forever secure and
guarantee the lands embraced within the said limits,
to the members of the Choctaw and Chickasaw tribes”
and reserved those lands from sale “without the consent
of both tribes.” The 1855 Treaty further reaffirmed
the Chickasaw Nation’s right of self-government.
5. Following the Civil War, the Chickasaw and
Choctaw Nations entered into the 1866 Treaty, which
did not alter the Chickasaw District but reiterated
the Choctaw and Chickasaw Nations’ right to selfgovernance and reaffirmed the rights granted under
the previous treaties.
6. The parties stipulated that the Appellant’s
crime occurred at 9971 County Road 3579, Ada, Pontotoc County, Oklahoma. The parties further stipulated
that this address is within the historical geographic
area of the Chickasaw Nation, as set forth in the
1855 and 1866 treaties between the Chickasaw
Nation, the Choctaw Nation and the United States.
7. The Chickasaw Nation is a federally recognized
Indian tribe that exercised sovereign authority under
a constitution approved by the Secretary of Interior.
8. No evidence is presented that these treaties
have been formally nullified or modified in any way
to reduce or cede the Chickasaw Nation lands to the
United States, any state or territory.

App.18a
9. The parties further stipulated that [i]f the Court
determines that those treaties established a reservation, and if the Court further concludes that Congress
never explicitly erased those boundaries and disestablished the reservation, then the crime occurred within
Indian Country as defined by Title 18 U.S.C. § 1151(a).
CONCLUSIONS OF LAW
First, the Court finds that a reservation was established for the Chickasaw Nation by the treaties
discussed above. Title 18 U.S.C. § 1151(a) defines
“Indian Country” as “all land within the limits of any
Indian reservation under the jurisdiction of the United
States Government . . . ” As noted by the United States
Supreme Court in McGirt v. Oklahoma, 140 S. Ct.
2452, 2461, “early treaties did not refer to the Creek
lands as a ‘reservation’-perhaps because that word
had not yet acquired such distinctive significance in
federal Indian law. We have found similar language
in treaties from the same era sufficient to create a
reservation.”
The Court in McGirt stated that the “most authoritative evidence of [a tribe’s] relationship to the land
. . . lies in the treaties and statutes that promised the
land to the Tribe in the first place.” It specifically
noted that Creek treaties promised a “permanent
home” that would be “forever set apart,” and assured
a right to self-government on lands that would lie
outside both the legal jurisdiction and geographic
boundaries of any state. As such, the Supreme Court
found that, “Under any definition, this was a reservation.” The Chickasaw Nation is subject to the same
analysis.

App.19a
In applying the reasoning the Supreme Court
used in McGirt to the case at bar, this Court must
reach the same conclusion. Specifically, in the 1830
Treaty of Dancing Rabbit Creek, the Choctaw Nation
was granted the land in question “in fee simple to
them and their descendants, to insure to them while
they shall exist as a nation.” It secured the rights of
self-government and jurisdiction over all persons and
property within the treaty territory and promised
that no state shall interfere with those rights.
These rights applied equally to the Chickasaw
Nation under the 1837 Treaty of Doaksville. The
Treaty of Doaksville secured to the Chickasaw Nation
a “district within the limits of the Treaty Territory],”
and guaranteed them the same privileges, rights of
homeland ownership and occupancy that the Choctaw
held under the 1830 Treaty.
In the 1855 Treaty of Washington, the Choctaw
and Chickasaw governments were made independent
of each other. The United States promised that it
does “hereby forever secure and guarantee the lands
embraced within the said limits, to the members of
the Choctaw and Chickasaw tribes,” and explicitly
reserved those lands from sale “without the consent
of both tribes.” It re-affirmed the tribes’ rights of selfgovernment, stating “the Choctaws and Chickasaws
shall be secured in the unrestricted right of selfgovernment, and full jurisdiction, over persons and
property, within their respective limits . . . ”
The aforementioned treaty rights were once
again reaffirmed in the 1866 Treaty of Washington,
which was entered when the Chickasaw and Choctaw
Nations agreed to cede certain defined lands to the
United States for a sum of money. Therefore, like the

App.20a
Creek treaty promises, the United States’ treaty
promises to the Chickasaw Nation were not made
gratuitously.
Applying the reasoning used by the United States
Supreme Court in McGirt, the plain wording of the
treaties demonstrate the Chickasaw lands were set
aside for the Chickasaw people and their descendants
and assured the right to self-government on lands
that would lie outside both the legal jurisdiction and
geographic boundaries of any state. It is, therefore,
clear that Congress established a reservation for the
Chickasaw Nation.
Upon finding that a reservation was established
by Congress for the Chickasaw Nation, this Court must
next determine whether Congress has erased those
boundaries and disestablished the reservation. As the
Supreme Court made clear in McGirt, “[t]o determine
whether a tribe continues to hold a reservation, there
is only one place we may look: the Acts of Congress.”
The constitutional authority to breach a treaty
“belongs to Congress alone,” and the Court will not
lightly infer such a breach “once Congress has established a reservation.” “[On]ce a reservation is established, it retains that status until Congress explicitly
indicates otherwise.’” While “[d]isestablishment has
never required any particular form of words, it does
require that Congress clearly express its intent to do
so, [c]ommon[ly with an] [e]xplicit reference to cession
or other language evidencing the present and total
surrender of all tribal interests.”
The Appellant and the State disagree where the
burden to prove disestablishment should be placed.
However, regardless which party bears the burden,

App.21a
no evidence was presented to the Court to establish
that Congress explicitly erased or disestablished the
boundaries of the Chickasaw Nation or that the State
of Oklahoma has jurisdiction of this matter. No evidence
was presented that the Chickasaw reservation was
“restored to public domain,” “discontinued, abolished
or vacated.” Without, explicit evidence of a present
and total surrender of all tribal interests, the Court
cannot find the Chickasaw reservation was disestablished.
This Court finds that Congress established a reservation for the Chickasaw Nation, and Congress never
specifically erased those boundaries and disestablished the reservation. Therefore, the crime occurred
in Indian country.
CONCLUSION
WHEREFORE, this Court finds that Charles
Michael Cooper is an Indian and that the crime for
which Appellant was convicted occurred in Indian
country for purposes of the General Crimes Act, Title
18 U.S.C. § 1152.
IT IS SO ORDERED!
Signed this November 18, 2020.
/s/ C. Steven Kessinger
District Judge

App.22a
COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, ORDER REMANDING
FOR EVIDENTIARY HEARING
(AUGUST 19, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
CHARLES MICHAEL COOPER,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2018-830
Before: David B. LEWIS, Presiding Judge.,
Dana KUEHN, Vice President Judge.,
Gary L. LUMPKIN, Judge., Robert L. HUDSON,
Judge., Scott ROWLAND, Judge.
ORDER REMANDING
FOR EVIDENTIARY HEARING
Charles Michael Cooper was tried in a non-jury
trial in the District Court of Pontotoc County, Case
No. CF-2016-535. The Honorable C. Steven Kessigner
found Cooper guilty of First Degree Murder (Count 1),
in violation of 21 O.S. Supp.2012, § 701.7; First Degree
Arson (Counts 2 and 5), in violation of 21 O.S.Supp.

App.23a
2013, § 1401; First Degree Burglary (Count 3), in violation of 21 0.S.2011, § 1431; and Second Degree Rape
by Instrumentation (Count 4), in violation of 21 O.S.
Supp.2015, § 1111.1. Judge Kessinger sentenced Cooper
to life imprisonment without parole on Count 1, thirtyfive years imprisonment on Count 2, twenty years
imprisonment on Count 3, fifteen years imprisonment
on Count 4, and thirty-five years imprisonment on
Count 5 and ordered all counts to run consecutively.
Cooper must serve 85% of his sentences on Counts 2,
3, and 5 before he is eligible for parole consideration.
Cooper appeals his Judgment and Sentence.
In Proposition 1 of his Brief-in-Chief, filed January
7, 2019, Cooper claims the District Court lacked jurisdiction to try him. Cooper argues that he is a citizen
of the Chickasaw Nation and that the crimes occurred
within the boundaries of the Chickasaw Nation Reservation.1 Cooper, in his direct appeal, relied on jurisdictional issues addressed in Murphy v. Royal, 875
F.3d 896 (10th Cir. 2017), which was affirmed by the
United States Supreme Court in Sharp v. Murphy,
591 U.S. ___, 140 S. Ct. 2412 (2020) for the reasons
stated in McGirt v. Oklahoma, 591 U.S., 140 S. Ct. 2452
(2020).2
1 Cooper also claims that defense counsel was ineffective for failing
to raise the issue of jurisdiction and asks the Court to either
supplement the record on appeal with documentation bearing
on the issue of jurisdiction or to order an evidentiary hearing for
the purpose of developing the record with regard to his claims.
2 On April 26, 2019, we held Cooper’s direct appeal in abeyance
pending the resolution of the litigation in Murphy. Following
the decision in McGirt, the State asked to file a supplemental
response to Cooper’s jurisdictional claim and Cooper filed an
objection. In light of the present order, there is no need for an

App.24a
Cooper’s claim raises two separate questions: (a)
his Indian status and (b) whether the crime occurred
in Indian Country. These issues require fact-finding.
We therefore REMAND this case to the District Court
of Pontotoc County, for an evidentiary hearing to be
held within sixty (60) days from the date of this
Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Cooper’s presentation of
prima facie evidence as to his legal status as an Indian
and as to the location of the crime in Indian Country,
the burden shifts to the State to prove it has subject
matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall
then make written findings of fact and conclusions of
law, to be submitted to this Court within twenty (20)
days after the filing of the transcripts in the District
Court. The District Court shall address only the
following issues:
First, Cooper’s status as an Indian. The District
Court must determine whether (1) Cooper has some

additional response from the State at this time and that request
is DENIED.

App.25a
Indian blood, and (2) is recognized as an Indian by a
tribe or the federal government.3
Second, whether the crime occurred in Indian
Country. The District Court is directed to follow the
analysis set out in McGirt, determining (1) whether
Congress established a reservation for the Chickasaw
Nation, and (2) if so, whether Congress specifically
erased those boundaries and disestablished the
reservation. In making this determination the District
Court should consider any evidence the parties provide,
including but not limited to treaties, statutes, maps,
and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings
of fact and conclusions of law, and any other materials
made a part of the record, to the Clerk of this Court,
and counsel for Appellant, within five (5) days after
the District Court has filed its findings of fact and
conclusions of law. Upon receipt thereof, the Clerk of
this Court shall promptly deliver a copy of that record to
the Attorney General. A supplemental brief, addressing
only those issues pertinent to the evidentiary hearing
and limited to twenty (20) pages in length, may be
filed by either party within twenty (20) days after
the District Court’s written findings of fact and conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
3 See United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir. 2001).
See generally Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114,
116.

App.26a
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is
necessary. Transmission of the record regarding the
matter, the District Court’s findings of fact and conclusions of law and supplemental briefing shall occur
as set forth above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of Pontotoc County:
Appellant’s Brief in Chief and Notice of Extra-Record
Evidence Supporting Propositions I and II of Brief of
Appellant and/or Alternatively Application for Evidentiary Hearing on Sixth Amendment Claims filed
January 7, 2019; Appellant’s Reply Brief filed April
19, 2019; and Appellee’s Response Brief filed April 3,
2019.
IT IS SO ORDERED,
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 19th day of August, 2020.

App.27a
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge
ATTEST:
/s/ John D. Hadden
Clerk

